No. ________________________

IN THE SUPREME COURT OF THE UNITED STATES

VAUGHN LEWIS,
Petitioner
v.
UNITED STATES OF AMERICA,
Respondent
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to the provisions of Rule 39 of the Rules of this Court, the petitioner,
Vaughn Lewis, moves to file the attached petition for writ of certiorari without
prepayment of costs and to proceed in forma pauperis.
Petitioner has not previously sought or been granted leave to proceed in forma

pauperis in any other court. Petitioner was represented in the United States Court of
Appeals for the First Circuit and the United States District Court for the District of
Massachusetts by counsel appointed pursuant to the Criminal Justice Act, 18 U.S.C.
ยง 3006A.
Inga S. Bernstein
Attorney for Petitioner
Dated: March 1, 2021

